WAIVER

Supreme Court of the United States

No. 21-16

Robert Paul Magtulis Cledera v. United States, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box: _-
oO Tam filing this waiver on behalf of all respondents.

& LIonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):
Apple Inc.

 

 

Please check the appropriate box:

f Iamamember of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

   

 

 

William Gray Cochran
OMs. O Mrs. O Miss

(Type or print) Name

Firm ___ Scott Douglass & McConnico LLP

 

 

Address
City & State Austin, Texas Zip__78701
Phone _512.495.6309 Email _ Wcochran@scottdoug.com

 

ACOPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

% Rogeer Pave Magtycis Crepe
